<html>
<title> - HEARING ON FAA'S OVERSIGHT OF ON-DEMAND AIRCRAFT OPERATORS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






            FAA'S OVERSIGHT OF ON-DEMAND AIRCRAFT OPERATORS

=======================================================================

                                (111-97)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 17, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure





                  U.S. GOVERNMENT PRINTING OFFICE
55-535 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)









                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
LEONARD L. BOSWELL, Iowa             SHELLEY MOORE CAPITO, West 
TIM HOLDEN, Pennsylvania             Virginia
MICHAEL E. CAPUANO, Massachusetts    JIM GERLACH, Pennsylvania
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
MAZIE K. HIRONO, Hawaii              CONNIE MACK, Florida
HARRY E. MITCHELL, Arizona           LYNN A. WESTMORELAND, Georgia
JOHN J. HALL, New York               JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
JOHN A. BOCCIERI, Ohio, Vice Chair   BRETT GUTHRIE, Kentucky
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
THOMAS S.P. PERRIELLO, Virginia
JOHN GARAMENDI, California
DINA TITUS, Nevada
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)







                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bolen, Edward M., President and Chief Executive Officer, National 
  Business Aviation Association..................................     4
Coyne, James K., President, Air Charter Safety Foundation........     4
Gilligan, Margaret, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................     4
Scovel, III, Calvin L., Inspector General, U.S. Department of 
  Transportation.................................................     4
Zuccaro, Matthew S., President, Helicopter Association 
  International..................................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    23
Costello, Hon. Jerry F., of Illinois.............................    24
Mitchell, Hon. Harry E., of Arizona..............................    31
Oberstar, Hon. James L., of Minnesota............................    32

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bolen, Edward M..................................................    36
Coyne, James K...................................................    48
Gilligan, Margaret...............................................    75
Scovel, III, Calvin L............................................    98
Zuccaro, Matthew S...............................................   111

                       SUBMISSIONS FOR THE RECORD

Bolen, Edward M., President and Chief Executive Officer, National 
  Business Aviation Association, PowerPoint presentation.........    46
Gilligan, Margaret, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................
      PowerPoint presentation....................................    86
      Response to request for information from Hon. Garamendi, a 
        Representative in Congress from the State of California..    18
      Response to request for information from Hon. Hirono, a 
        Representative in Congress from the State of Hawaii......    95

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
       HEARING ON FAA'S OVERSIGHT OF ON-DEMAND AIRCRAFT OPERATORS

                              ----------                              


                       Wednesday, March 17, 2010,

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:00 p.m. in 
room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order.
    The Chair will ask all Members, staff and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to receive testimony 
regarding the FAA's oversight of on-demand aircraft operators. 
I will give a brief opening statement, call on Mr. Petri, the 
Ranking Member, to make any comments or give a statement, and 
then we will immediately go to witnesses.
    I understand everything is subject to change around here, 
but I understand that we have votes right away, so we will wait 
and see.
    I welcome everyone to the Subcommittee hearing today on the 
FAA's oversight of on-demand aircraft operators. On-demand 
aircraft operators represent a segment of the aviation industry 
that operates aircraft on a for-hire, on-demand basis. Their 
flights include air tours and sightseeing flights, air medical 
flights, flights for passenger business or personal travel, and 
helicopter flights to offshore oil rigs.
    Part 135 of the Federal aviation regulations govern on-
demand operators. In 2003, the FAA initiated an Aviation 
Rulemaking Committee to evaluate and make suggestions to update 
the regulations related to part 135. The ARC sent 124 
recommendations to the FAA in 2005, many of which were related 
to the on-demand industry. To date, the FAA has not issued any 
final rules based on the ARC's recommendations.
    In 2007 and 2008, there were 33 fatal on-demand accidents 
resulting in 109 deaths. In 2007, due to concerns about the 
fatal accident rate in the on-demand industry, Chairman 
Oberstar and I requested the Department of Transportation's 
Inspector General to review the on-demand industry and evaluate 
the FAA's oversight activities.
    Specifically, we requested that the I.G., one, evaluate the 
differences between the FAA's regulation and on-site or on-
demand operators versus larger commercial air carriers. 
Secondly, to identify specific issues that may hinder the FAA 
in its oversight responsibilities. And three, provide 
recommendations to improve the FAA's oversight of these 
operators.
    The I.G. issued the first part of its report in July of 
2009, and I understand the second report will be issued very 
shortly. Today, I look forward to hearing from the I.G. on its 
ongoing work in this area.
    The first report raised a number of important issues. The 
I.G. found that on-demand operators operate in a high risk 
environment. This Subcommittee heard similar testimony last 
year concerning helicopter air ambulance operations, which 
often fly in challenging conditions such as poor weather, 
nighttime and to unfamiliar landing sites.
    The bottom line is that on-demand operators fly very 
different missions than scheduled commercial airlines, and in 
many cases they do not have the same infrastructure as 
scheduled commercial airlines. For example, on-demand pilots 
often fly without the assistance of an air traffic controller 
to ensure aircraft separation and to provide weather and safety 
advisories.
    The I.G. also found that on-demand operators had less 
stringent safety-related regulatory requirements than large 
commercial airlines.
    Some of the ARC's 2005 recommendations for on-demand 
operators related to icing and pilot fatigue. These are issues 
that this Subcommittee has examined with regard to scheduled 
commercial airline operations. The FAA has commenced 
rulemakings related to icing for large commercial airlines, 
although we still are waiting for the FAA to issue several 
final rules. We need to ensure that the on-demand community is 
not left out of the process as we go forward.
    In addition, the report stated that the FAA lacks a risk-
based oversight strategy for on-demand operators. The FAA does 
not require that on-demand operators report any data to the 
agency, but instead conducts a voluntary survey. It is 
difficult to have a risk-based oversight system without data to 
show where risks are. Again, this is a problem similar to what 
this Subcommittee found with regard to helicopter air ambulance 
operations.
    After I requested a study on the subject, the GAO issued a 
report in 2007 recommending that the FAA identify and collect 
data to better understand the air ambulance industry. Today, I 
hope to hear from the FAA on steps that it intends to take in 
the interim to ensure risk-based oversight for the entire on-
demand industry.
    I also look forward to hearing from the industry on steps 
that it has taken to improve the safety and oversight of its 
operators.
    We address many of the problems that the DOT I.G., the GAO 
and the National Transportation and Safety Board identified 
relating to helicopter air ambulances in H.R. 915, the FAA 
Reauthorization Act of 2009, which is currently pending in the 
Senate. Our bill also deals with issues relating to pilot 
fatigue in both the on-demand and commercial airline 
environment. I hope to move to Conference on this bill very 
shortly after the Senate acts, as we understand that they are 
doing as we speak.
    Before I recognize Mr. Petri for his opening statement or 
any remarks, I ask unanimous consent to allow for two weeks for 
all Members to revise and extend their remarks and to permit 
the submission of additional statements and materials by 
Members and witnesses.
    Without objection, so ordered.
    The Chair now recognizes the Ranking Member of the 
Subcommittee, Mr. Petri, for his statement or any comments that 
he would like to make.
    Mr. Petri. Mr. Chairman, thank you for calling this 
important hearing on the safety of air charter and on-demand 
operations, commonly referred to as part 135 Operations.
    Air charter and on-demand operators, including tourist 
sightseeing flights, agricultural missions, business charter 
flights and helicopter rescue flights play an important role in 
our economy. Air charter and on-demands air taxi operators 
conduct flights under different regulations than large 
commercial carriers due to the wide variety of flight and 
mission profiles of part 135 operators.
    Commercial airlines, on the other hand, operate under 
fairly uniform flight and mission profiles. They are generally 
flying scheduled flights from one airport to another with a 
great deal of consistency.
    According to industry experts, the part 135 industry has 
shown a declining accident rate over the last 10 years. 
However, a recent Department of Transportation Inspector 
General review has indicated that there are potential safety 
risks and shortcomings in FAA oversight of this complex 
industry.
    So I am interested in hearing an assessment of the safety 
of the part 135 industry and what steps might be taken to 
improve risk-based safety oversight of the industry. I would 
also like an update from the FAA and other witnesses on the 
regulatory efforts that grew out of the 2005 Aviation 
Rulemaking Committee recommendations specific to this segment 
of the aviation industry.
    Finally, safety experts have testified before this 
Subcommittee that the key to improving aviation safety is to 
address threats based on defined risk. Safety data from both 
mandatory and voluntary reporting mechanisms have helped the 
FAA to achieve a remarkable safety record.
    According to the Inspector General's report, there is a 
lack of safety data available to regulators and auditors to 
pinpoint safety risks within the part 135 industry. So I am 
interested in hearing from the witnesses which data sets, if 
collected, would help to improve safety without causing undue 
cost burdens on small mom and pop operators.
    And this is always a problem between larger and smaller 
entities, and we don't want to drive small people out of 
business because they are often servicing major parts of our 
economy. In my part of the Country, we have a lot of people 
flying crop dusting and doing other flights, in addition to the 
emergency health flights and the like.
    I thank the witnesses for their participation in today's 
hearing and I look forward to your testimony.
    Mr. Costello. I thank the Ranking Member.
    And now we will recognize the panel of witnesses: first, 
the Honorable Calvin Scovel, III, who is the Inspector General 
for the U.S. Department of Transportation; Ms. Margaret 
Gilligan, who is the Associate Administrator for Aviation 
Safety with the FAA; Mr. Ed Bolen, who is the President and 
Chief Executive Officer of the National Business Aviation 
Association, and Mr. Bolen was the co-chair of the ARC; Mr. 
Matthew Zuccaro, who is the President of the Helicopter 
Association International; and Mr. James Coyne, who is the 
President of the Air Charter Safety Foundation.
    I welcome all of our witnesses here today. I would ask 
Members to give their statements in five minutes or less, and 
would advise all of our witnesses that your entire statement 
will appear in the record. And we will ask you to abide by the 
five minute rule so that we have time, hopefully, to ask 
questions of our witnesses.
    The Chair now recognizes Inspector General Scovel.

  TESTIMONY OF CALVIN L. SCOVEL, III, INSPECTOR GENERAL, U.S. 
  DEPARTMENT OF TRANSPORTATION; MARGARET GILLIGAN, ASSOCIATE 
      ADMINISTRATOR FOR AVIATION SAFETY, FEDERAL AVIATION 
ADMINISTRATION; EDWARD M. BOLEN, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, NATIONAL BUSINESS AVIATION ASSOCIATION; MATTHEW S. 
ZUCCARO, PRESIDENT, HELICOPTER ASSOCIATION INTERNATIONAL; JAMES 
       K. COYNE, PRESIDENT, AIR CHARTER SAFETY FOUNDATION

    Mr. Scovel. Chairman Costello, Ranking Member Petri, 
Members of the Subcommittee, thank you for inviting me here 
today to testify on FAA's regulatory framework and oversight 
challenges for on-demand aircraft operators.
    On-demand operators are a vital part of our Nation's air 
transportation system and economy. In addition to conducting 
passenger flights and cargo operations, on-demand operators 
provide critical services such as emergency medical transport 
and access to remote communities. Over the last 10 years, 
however, on-demand operators have been involved in 155 fatal 
accidents.
    At the request of this Subcommittee, we completed a review 
and issued a report last July that identified differences in 
regulations and oversight applied to on-demand operators versus 
large commercial carriers. We are completing a second review, 
which focuses on specific challenges in FAA's oversight of this 
industry. My testimony today is based on this body of work.
    I would like to discuss three areas in which we have 
focused our efforts: one, the risks surrounding on-demand 
operators; two, the need for an updated and effective 
regulatory framework given these risks; and three, challenges 
facing FAA in moving from compliance-based oversight to risk-
based approach.
    On-demand operators typically fly in an inherently risky 
environment. They tend to have short flights with more takeoffs 
and landings, the most dangerous part of a flight, and they may 
fly to and from small airports that may not have air traffic 
control towers or emergency equipment. They may also operate at 
altitudes vulnerable to weather and terrain hazards.
    At the same time, on-demand pilots are often unfamiliar 
with the flight route due to the many different destinations 
that they service. Maintaining the varied and often older 
aircraft types and models adds to the complexity of operations 
and FAA oversight.
    The 22 operators we reviewed had 321 registered aircraft, 
comprised of 65 different makes or models ranging from small 
Cessnas to Gulfstream jets and Sikorsky helicopters.
    Despite these risks, FAA's current oversight of on-demand 
operators is based on compliance with outdated regulations that 
lack rigor in key areas such as flight crew training 
requirements and maintenance inspections for aircraft. For 
example, most on-demand operators are not required to provide 
pilots with leadership in cockpit decision-making training, 
CRM, even though the NTSB concluded that such training might 
have prevented several fatal on-demand accidents between 2001 
and 2004.
    In regard to maintenance requirements for on-demand 
operators, we found that about 60 percent of the on-demand 
passenger and cargo fleet is over 20 years old. FAA, however, 
does not require aging aircraft inspections for on-demand 
operators.
    Further, while many key maintenance requirements for on-
demand aircraft seating 10 or more passengers are similar to 
those for large commercial aircraft, these requirements do not 
apply for on-demand aircraft seating nine or fewer passengers 
which make up 85 percent of the industry.
    FAA also needs a better regulatory framework for segments 
of the on-demand industry that have even greater operating 
risks such as helicopter air ambulance and air tour operators. 
Air ambulance operations are frequently conducted in poor 
weather, low visibility and high stress. Air tour operations 
are usually conducted at low altitudes in high traffic areas 
and with pilots conversing with passengers.
    FAA efforts to improve helicopter air ambulance safety have 
focused on voluntary actions with little results. For example, 
in 2008, air ambulance operators were involved in eight crashes 
resulting in 29 fatalities. FAA has a rulemaking effort 
underway for helicopter emergency medical services, but to date 
has not issued a proposed rule.
    While FAA issued a new rule for air tour operators in 
February, 2007, the rule continues to allow some air tour 
operators to fly under less stringent general aviation 
regulations. As a result, many of the standards in place for 
part 135 operators, such as pilot training programs, more 
stringent maintenance policies, and crew rest restrictions, are 
still not required for many air tour operators.
    In 2005, FAA's Aviation Rulemaking Committee made 124 
recommendations for strengthening on-demand regulations. The 
recommendations address concerns such as crew rest, flight and 
icing conditions, and the lack of cockpit voice recorders and 
operational data. To date, however, FAA has not issued final 
rules addressing the committee's recommendations and many of 
these issues are also the focus of 39 open NTSB recommendations 
related to on-demand operations.
    FAA plans to implement a risk-based safety approach for 
safety oversight for on-demand operators in 2013. However, 
given the number of accidents associated with on-demand 
operations, we believe it is imperative that FAA implement an 
interim process that considers the risk factors unique to this 
industry.
    We will continue to monitor FAA's progress as it strives to 
provide one level of safety for all commercial aviation 
operations.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer your questions or other questions posed by Members of 
the Subcommittee.
    Mr. Costello. The Chair thanks you, Mr. Scovel, and now 
recognizes Ms. Gilligan.
    Ms. Gilligan. Thank you, Mr. Chairman. And we have a few 
slides that we would like to use to accompany this 
presentation.
    I want to thank you and Mr. Petri and the Members of the 
Committee for inviting me to discuss FAA's oversight of the on-
demand operators. I would like us to look at the nature, scope 
and, importantly, the value of these operations.
    We are talking about these kinds of aircraft operating to 
these kinds of airports, including Alaska, where you may find a 
polar bear on the tarmac, and oil rig in the middle of the Gulf 
of Mexico or the rooftop of a hospital.
    On-demand operations aren't anything like the commercial 
operations we are usually called here to discuss. Those 
operations, operated under part 121 of our regulations, are 
what most people experience when they fly. They buy a ticket 
and fly from one major airport to another, using only about 10 
percent of the airports throughout the Nation.
    But if you live in Alaska or if you need emergency medical 
service in a remote locations or more quickly than surface 
transportation can provide it; if you are handicapped or 
elderly, but want to see the vast beauty of the Grand Canyon or 
the amazing sight of the only active volcano in the U.S. while 
traveling in Hawaii, you need the kind of services provided by 
an on-demand operator.
    We think comparing these operations to part 121 operations 
is like comparing apples and oranges. These operations are not 
predictable, but we and the Congress have acknowledged that 
they are valuable. They take passengers and packages to places 
you can't get to from here. They serve remote location, mostly 
in Alaska, but also throughout the U.S., and they land on 
everything down to grass and gravel strips.
    They serve needs that cannot be met in any other way. That 
is why it is important to identify the risks in each of the 
various types of operations and identify safety improvements 
that address those risks.
    I want to be clear. The accident rate for these operators 
is higher than we want. No accident is acceptable to the safety 
professionals at the FAA. And that is why we have engaged in 
continuous efforts to increase the level of safety throughout 
the industry.
    The data shows that over the last 10 years, we have 
continually put pressure on the number of total accidents and 
the number of fatal accidents in this industry. The actual 
number of accidents, as well as the accident rates, are 
trending down. I would like to look at the data for several 
parts of this industry.
    Congress has acknowledged the value of air tour operations. 
You have given us direction to enhance the safety and reduce 
the environmental impacts of these operations, but you have 
never suggested these operations should be eliminated. At FAA, 
we have taken specific actions to improve safety of air tours 
in Hawaii, and in 2007 established a specific set of safety 
standards, part 136, that applies to all air tours. And in this 
case, the numbers of accidents continues to trend down.
    Emergency medical service is a vital public safety and 
health demand, but the service must be provided safely. We have 
identified safety improvements and have gotten voluntary 
implementation from many operators. We saw great improvement in 
2007, but we saw another spike in accidents in 2008. And while 
the accidents continue to trend down over the last 10 years, we 
know we can make even more improvements. We have started what 
Congress will be directing in the FAA reauthorization, a 
rulemaking that sets specific safety standards for these 
valuable operations.
    Thousands of employees and tons of equipment are moved to 
and from oil rigs every day, and there is no way to do it 
except by air. This inhospitable environment was very hard for 
us to conquer since there was no way to establish radar service 
over the water. But technology advances give us the chance to 
change that, and the Gulf of Mexico is one of the first places 
where we are implementing ADS-B. By providing air traffic and 
other services to operators in the Gulf, we will continue to 
push down the accident rate.
    And finally and perhaps most importantly, Congress has 
recognized the unique role aviation plays in everyday life in 
Alaska. From funding the FAA's Capstone Program that provided 
ADS-B technology throughout the State, to supporting the 
Medallion Foundation's efforts to improve pilot training and 
implement other safety enhancements, Congress has invested in 
safety and we see the results in the constant improving 
accident trends.
    But we are not finished. We agree with the Inspector 
General that we can improve our oversight of this diverse 
industry. We have provided our inspectors a tool to improve 
their focus on high risk areas. About 70 percent of the 
inspector teams that are assigned to these operators are 
already using that tool, and we will require that it be used by 
all inspectors by the end of the year.
    And in accordance with Congressional direction, we have 
developed a staffing model that will help us better estimate 
the staffing we will need in the future, and we will use that 
model for our 2012 budget.
    Congress, FAA and the on-demand industry have made 
measurable safety improvements over the last 10 years. We 
intend to continue that success and we would be pleased to 
respond to any questions.
    Mr. Costello. The Chair thanks you, Ms. Gilligan, and now 
recognizes Mr. Bolen.
    Mr. Bolen. Thank you, Mr. Chairman and Mr. Petri and the 
Committee for holding this important hearing, giving us an 
opportunity to testify today.
    As you know, the National Business Aviation Association 
represents over 8,000 companies that rely on business aviation 
for some portion of their transportation challenges. This 
includes both part 91 operations and part 135 operations. As 
all of you know, these have been very challenging times for the 
business aviation community. Nevertheless, it remains a very 
important industry for the United States economy.
    Here in the United States, business aviation represents 
over 1.2 million jobs--including manufacturing jobs, service 
jobs, good paying jobs that we can keep here in the United 
States. Business aviation also serves as an economic lifeline 
to those communities with little or no airline service. During 
this economic turndown, over 100 communities have lost all air 
service. So general aviation is a vital link for America.
    General aviation also helps companies be productive and 
efficient, help them do more with less, and also provides 
assistance in our Nation's humanitarian efforts. Since the 
Haiti crisis, for example, business aviation operations have 
flown over 700 operations into Haiti. They have transported 
over 1,200,000 pounds of supplies. They have moved over 3,500 
people, doctors, humanitarian relief efforts. So it is a 
critical part of our Nation's aviation infrastructure.
    I think one of the things that has already come out today 
is that part 135 operations, which are very much a part of the 
business aviation community, are enormously diverse, with 
diverse aircraft flying diverse operations into often 
challenging and sometimes unique places.
    It is also what makes part 135 operations so important in 
the United States. And there is a concern as we have some of 
these conversations that people will mistake why we have 
different regulations for schedule operations, for on-demand 
operations, and for noncommercial operations. But it gets to 
the point that these are very different operations which need 
to have appropriate interventions and regulations, which 
understand, facilitate the operations, and enhance the safety. 
Our goal should not be to have identical regulations. It should 
be to reach equivalent safety opportunities.
    With that in mind, the Aviation Rulemaking Committee that 
the Chairman has referenced in his opening remarks was convened 
I 2003. We have not had a major rewrite of part 135 since 1978, 
and so beginning in 2003, large numbers of people from the 
community dedicated hundreds of hours in a sustained effort to 
try to understand the diversity of the operations and to 
propose thoughtful, tailored enhancements to the safety net 
which is in place.
    These recommendations, as you have mentioned, dealt with 
issues including fatigue, icing, cockpit resource management. 
We think that they were appropriate when they were submitted to 
the FAA in 2005. And I have gone back and reviewed them, and I 
do not believe the intervening five years has changed what the 
community would recommend as we go forward.
    Five years feels like a long time to wait for a rulemaking, 
but we also recognize that during that time the FAA has had 
multiple administrators. And so we have approached the 135 ARC 
recommendations with some degree of patience, but we feel it is 
important that we move forward. The community put a tremendous 
amount of time and effort into this. We think it represents the 
best thinking from the community and we would urge the FAA to 
move forward with that.
    We also recognize in the interim period there are 
educational programs and international standards such as the 
International Standard for Business Aviation Operations, or 
ISBAO, which can facilitate these operations, and there is 
probably more that can be done in terms of reporting, training, 
and inspector prioritizations of resources.
    But Mr. Chairman and Members of the Subcommittee, MBAA 
stands ready to assist you as we try to move forward to build 
on the very special on-demand operations which are so 
fundamental to our Nation's job base and our transportation 
system as we work to enhance safety.
    Thank you.
    Mr. Costello. The Chair thanks you, Mr. Bolen, and now 
recognizes Mr. Zuccaro.
    Mr. Zuccaro. Thank you, Chairman Costello and good 
afternoon, Ranking Member Petri and Committee Members. I 
appreciate the opportunity to come before you.
    The original issue seems to be based on the perception of a 
safety disparity between scheduled 121 and on-demand 135. That, 
as you accurately pointed out, that is kind of a skewed 
comparison at this point, based on the fact that there is no 
actual data of flight hours or mission-specific performance in 
the on-demand market, certainly not in the helicopter industry.
    We believe that simple action of getting that accurate data 
and mission profile would increase or enhance our safety 
profile, based on 100,000 hours flown. It still is not 
acceptable and it still is not on a par with the scheduled air 
carriers, but it would give an accurate comparison.
    I know the issue does not really relate to regulatory 
oversight per se. As was mentioned, the regulations are 
pertaining to the specific mission profile. Case in point in 
the helicopter industry, which is kind of unique, 121 air 
carriers basically comply in fact with 121, which is an 
extensive, complex regulation based on their operating 
environment and their equipment.
    If I am a typical helicopter operator and I want to go out 
and do multi-missions, and we have 50 of them, and plus, I have 
to make sure that my operation is in compliance with FAR part 
61, in compliance with FAR part 91, in compliance with FAR part 
119, and compliance with FAR part 135. And if you're flying 
HEMS, there is specific flight duty rest time limitations in 
there.
    Let's say I actually also do some air tour operations. I 
have to make sure I am in compliance with FAR part 136. Within 
that regulation, it has further requirements for Grand Canyon 
and the State of Hawaii. If I want to do external load 
operations, I have to make sure I comply with 133 rotocraft 
external load. And if I should happen to be doing aerial 
applications, I have to make sure I am complying with part 137.
    This is an extensive regulatory oversight that exists and 
we think it is proper. And if you want to enhance it or tweak 
it, we are up for that, but it shouldn't be replaced by a 
duplicate 121.
    I think the other issue in terms of maintenance is 
important, that helicopters are maintenance-intensive and we 
basically do in fact have extensive maintenance comparable to 
the airlines because of the nature of the equipment and the 
manufacturer's recommendations.
    If I can get the slide up here? This is a slide prepared by 
the FAA out of the Safety Office a while back. And you can see 
that this is factors over 1946 to 2002 that led to a drastic 
reduction of the 121 air carrier accident history. It brought 
it down to almost zero, which is a goal that we aspire to, and 
we have the utmost respect for the 121 operators and the people 
that run that operation and the achievement they have made.
    But what is important is take a look at the things that 
triggered the reductions. They are either infrastructure 
improvements or technology advancements. They are not increased 
regulations and it is not surveillance increase. And it is also 
on the bottom, the important box on the bottom indicates a 
cooperative safety agenda between the FAA and the industry 
drove this train.
    We respect that and we are trying to duplicate that in the 
helicopter industry through the International Helicopter Safety 
Team. And the next slide indicates basically what it would be 
like possibly if the helicopter industry achieved this, 
introduction to a scalable safety management system, insurance 
safety incentives, night vision goggle utilization and TOZ, 
ADS-B implementation, which is now taking place in the Gulf of 
Mexico, and eventually as a vision in all IFR operations 
similar to the airlines, with a cooperative effort between the 
industry and the FAA and the NTSB and the Committee.
    So we think that is really the key to make this thing 
happen and not really focusing on the particular regulations. 
If you take a look at the mission profiles that have been 
mentioned. A typical airliner, obviously, travels certified 
airport IFR to certified airport. Take an EMS mission where you 
depart in the middle of the night off of a trauma center in 
undesirable weather and over a possibly less than desirable 
terrain, without communications and without surveillance from 
air traffic control, and you are going to land someplace that 
nobody's been before.
    We want our environment to be improved to equal or get up 
to the status of the 121 air carriers. We think that that is 
the way to go. Give us a similar operating environment with 
their controls and their oversight in the environment and the 
technological advancements, and we think we can duplicate their 
information in terms of safety history.
    We are not against regulations. We have supported 
regulatory initiatives as appropriate in the HEMS. Our 
recommendations actually have exceeded the NTSB recommendations 
and the FAA, so it is not a matter of not wanting more 
regulations. We want the right ones that are applicable to our 
situation.
    That being said, we are going to maintain our policy of 
safety first. One accident is one too many, and we look forward 
to working with the Committee, the FAA and the NTSB to achieve 
that.
    Thank you very much.
    Mr. Costello. The Chair thanks you, Mr. Zuccaro, and now 
recognizes Mr. Coyne.
    Mr. Coyne. Well, thank you very much, Chairman Costello, 
Ranking Member Petri and Members of the Subcommittee.
    My name is James Coyne. I am the President of the Air 
Charter Safety Foundation, which was founded in 2007 as a 
501(c)(3) non-profit foundation established to improve safety 
in air charter and shared aircraft ownership operations.
    A lot of the important comments that I was going to be 
making have already been made, so with your permission I would 
like my comments put into the record, and really address some 
of the concerns we have about the I.G. study directly to you.
    First off, the I.G. study concludes that the FAA's 
oversight produces less stringent safety requirements on part 
135 operations. And I am here to say that in fact that is 
probably a misstatement. I used to be a college professor many 
years ago and I know how hard it is for the I.G. to track young 
people and have them do studies like this on short notice 
without really fully understanding an industry. But if I had to 
give this study a grade as a professor in my days, I probably 
would give it a C minus because it really overlooked some of 
the most important things that you need to do to evaluate the 
safety of the air charter industry.
    They say they want to look at the risk factors in the 
industry, and I certainly agree with everything that they said 
about the risk factors in air charter. We in the industry have 
known from the day of our very first air charter operation, we 
have always known that this is a different business than the 
airline business and has very different risk factors. So I 
congratulate the study for producing a report that says the 
obvious. We have known this for a long, long time.
    But what they don't say, what they do not research is how 
has the community, how has the air charter community responded 
to these very different risk factors that we have to face? And 
the answer is we have done over the last 50 years hundreds and 
hundreds of things, many of them with the FAA's encouragement 
and guidance and many of them without.
    And I would like to focus just on six of those items that 
we have achieved in just the last few years. First is the 
implementation of rigorous audits across the industry. This is 
probably one of the most important things to have happened in 
the last 10 or 15 years. These did not exist in the charter 
industry as recently as 15 years ago, and now virtually all of 
the major charter operators in this Country voluntarily subject 
themselves to aggressive audits to ensure that their operation 
manuals that they have to submit to the FAA before they can be 
approved to operate an aircraft, that they are living up to the 
letter, the spirit of those operation manuals and those 
guidelines and the FAA regulations.
    We at the Air Charter Safety Foundation undertake audits 
for our members at great expense, and we do it regularly, and 
we hope that all of the charter operators in the Country will 
continue to move in this direction.
    And one of the reasons that they will, we think, is because 
of the second item I would like to mention, the development of 
what we call safety management systems. This is something, 
frankly, that we have copied from the military and from the 
airline industry. But in the last five years, across the entire 
135 industry, there has been an understanding that we are 
moving in the direction of safety management systems in our 
industry.
    In fact, the ICAO, the International Civil Aviation 
Organization, is mandating that SMS, or what we call safety 
management systems, become a part of air charter around the 
globe. And the FAA is moving with this community to have this 
SMS mind set developed and turned into regulatory demands.
    The third thing I would mention is the development of 
safety data development systems. Again, five or 10 years ago, 
there was really no sophisticated way for the industry to 
develop safety data or to track safety data. The Air Charter 
Safety Foundation has produced a program called AVSiS. It is a 
free safety data tracking system for our operators or any 
operator in the Country. And this will allow us to begin to 
develop the data that we need to really find out what are the 
things that we are doing wrong? Because you don't want to wait 
for the accident to happen. You want to start mining the data 
of your operations to find out where you have to invest new 
resources and attention.
    Fourth, the Air Charter Safety Foundation has just recently 
released something we call a risk assessment tool. This allows 
every charter operator in the Country before a flight to 
determine what are the special risks associated with this 
special flight. If you are taking off at night in rain, if it 
is going into an airport you are unfamiliar with, if there is 
snow on the runway, all sorts of factors can be put into this 
risk assessment tool so that the aircraft operator can 
determine whether he has to take or she has to take special 
steps or perhaps even cancel the flight so that the operator 
can go to the passenger and say, I am sorry, but the risk 
assessment that I have just done on this flight is so high that 
I am not willing to do the flight now. We are going to wait 
until tomorrow morning, things like that.
    This is something that even the airline industry doesn't 
have as well developed as we are developing in the charter 
industry.
    Third, we have produced for our community something we call 
IC-Check, which is a computerized system so that every operator 
can assure himself that before the flight is taken, the flight 
is fully consistent with every single FAA requirement, that we 
fully in compliance with everything. This fulfills the role of 
a dispatcher, perhaps, for a larger airline, but allows a 
smaller operator to have this online tool to achieve the same 
kind of assurance that they are meeting all of the regulatory 
requirements for a flight.
    And finally, we have developed, in conjunction with the 
Port Authority of New York, an online training program for 
complicated airports, so that a pilot going into an airport 
that he has never flown into before can go online and see a 20 
or 30 minute video as though he was being briefed by someone 
who has been flying into that airport for 20 years, get the 
benefit of somebody really familiar with that airport, and get 
it online for free. So this is something that we think is going 
to be very important to give pilots who are going into airports 
where they don't have a lot of experience really a good 
opportunity to train for that particular flight.
    So I don't see how the I.G. can do a study of what the FAA 
should do in terms of aviation safety for this industry unless 
they study what is the community already doing itself. It is 
trying to look at one hand without the other. And frankly, it 
has already been mentioned that this is apples and oranges. 
This is far broader than apples and oranges. If the airlines 
are an orange, this community is hundreds and hundreds of other 
kinds of apples, and we deserve to have a flexible adaptive 
regulatory system. And I submit that the one that we have today 
is flexible. It is adaptive, and it is not certainly less 
stringent than is needed.
    Thanks very much.
    Mr. Costello. The Chair thanks you, Mr. Coyne.
    Mr. Scovel, I have to ask you to follow up on Mr. Coyne's 
statement that, one, he doesn't see how the Inspector General 
can ask the FAA to proceed without first seeing what the 
industry is doing. Do you have a comment about that?
    And secondly, I think Mr. Coyne said in his former career 
as a professor that he would give the report a C minus. And I 
am wondering, one, can you grade the report for us? Mr. Coyne 
gives it a C minus.
    Mr. Scovel. Thank you, Mr. Chairman. A couple of comments, 
if I may.
    First, I would like to acknowledge Mr. Bolen's superb 
contributions to the 2005 Aviation Rulemaking Committee. The 
committee has come up with some superb recommendations for FAA 
and for the Congress to consider in order to increase the 
safety posture for the on-demand carrier industry.
    Mr. Zuccaro, about a month ago I put my son on a helicopter 
air ambulance to take him from one Northern Virginia hospital 
to another. He is recovering from a bone marrow transplant. I 
am very thankful to you and to the pilots of that bird and 
everyone in that industry.
    Mr. Coyne, my aviation safety team I thought was on track, 
frankly, to make it into Phi Beta Kappa because they are the 
same team that two years ago reported on Southwest Airlines, so 
that has appeared frequently before this Committee regarding 
repair station oversight, FAA oversight of repair stations. We 
have also done extensive work recently on American Airlines and 
their maintenance procedures.
    I guess we will have to go back to remedial study hall if 
all we are going to get from this one is a C minus.
    Mr. Chairman, I would put this one a lot higher than that. 
And if I could echo a couple of comments that you made in your 
introductory remarks. First, let me remind everyone here that 
we responded to your request and to Chairman Oberstar's request 
when we prepared this report.
    You asked us to look at the characteristics of both part 
121 and 135 segments of the industry, their regulatory 
differences, FAA's varying safety oversight programs, and 
keeping in mind my mission under law to keep this Congress and 
the department fully and currently informed. When I have two 
Committee Chairmen tell me what they would like to be informed 
about, we answer the mail. And we have done that here.
    In the course of doing that, we consulted extensively with 
the FAA and with industry representatives, to include those 
sitting here at the table with me today. They had a chance to 
look at all of our facts and we have incorporated their 
comments where we considered appropriate in our report to the 
Committee.
    Secondly, I interpreted, sir, your direction to us to 
compare 135 with 121 merely as a request to use part 121 as a 
frame of reference, not as a yardstick against which we should 
measure part 135 with the intent ultimately to recommend that 
one set of regulations become the mirror image of the other.
    Our July, 2009 audit report and my testimony today report 
on undeniable safety challenges faced by the on-demand 
industry, resulting from, as we have all agreed in our 
introductory remarks today, the diversity of operators and 
aircraft in the challenging environment in which they fly.
    I think an objective reading of our work will show that we 
have never recommended that 135 regulations be revised to 
mirror part 121. We know our lane and we stay in it. FAA is the 
policy maker, not OIG. Our role is to provide data so that the 
Congress, the department and FAA can get their decisions right.
    We are not NTSB either. NTSB is acknowledged worldwide as 
the aviation safety experts. That is not my role.
    What we have done over the course of many years now, not 
only while I have been the Inspector General, but also under my 
predecessors, has been to derive long experience with our 
examinations of FAA's safety oversight programs. And FAA is our 
jurisdiction, not the industry. And I would like to keep that 
uppermost in mind, too.
    In fact, industry and we, once all the smoke clears I think 
from this discussion, have to recognize that we are essentially 
on the same page thanks to the intimate involvement of industry 
in the Aviation Rulemaking Committee over the course of more 
than two years, from 2003 to 2005.
    The Congress and FAA have an outstanding blueprint, a road 
map on how to improve safety conditions within the 135 industry 
and that is the report from the ARC. And again, an objective 
reading of our 2009 report and our testimony today will show 
that essentially our recommendations boil down to this. FAA 
needs to move out on the ARC recommendations. FAA needs to 
institute an interim oversight measure, risk-based oversight 
measures to bridge the gap between where we are today until 
2013 when its new risk-based long-term safety oversight system 
is supposed to come on line.
    Mr. Costello. I thank you, Mr. Scovel.
    At this time, the Chair would recognize the distinguished 
Chairman of the full Committee, Mr. Oberstar, who has to leave 
shortly, as do I and Mr. Petri, to go to the floor to manage a 
bill.
    So Chairman Oberstar?
    Mr. Oberstar. Manage two bills, in fact, one a reiteration 
of a bill we passed last week or the week before. Hopefully the 
other body has risen from its slumber and been affected by an 
earthquake, prodded into movement, and do the right thing by 
the furloughed employees.
    But I want to thank Inspector General Scovel for splendid 
work and quick response to the request Mr. Costello and I made 
to inquire into this particular issue. It has been a long time 
concern of mine, higher inspection standards for aircraft, the 
aging aircraft, the challenges of that segment and the 
incidence, rising apparently, incidence of fatal accidents with 
on-demand air services, which I rely on in my district. My 
district is the size of the Eastern Seaboard from here to 
Connecticut, and without charter operations, I couldn't serve 
the people of my district, but it has to be safe.
    And the issues raised and questions provoked by the 
Inspector General's report are of great importance, and the 
testimony from all the witnesses. I have skimmed through it, as 
I usually do for all these hearings, and I would love to spend 
a little more time with you, but unfortunately the Floor calls 
and we have to leave.
    But thank you very much for your presentation.
    Mr. Costello. The Chair thanks Chairman Oberstar.
    And now, Ms. Gilligan, if you would, you state in your 
testimony that the FAA is optimizing its oversight resources on 
demand operations. Do you want to elaborate on that?
    Ms. Gilligan. Yes, sir. As always, FAA is faced with 
setting priorities. And as we look at the Inspector General's 
recommendations, for example, on providing risk-based 
oversight, we have worked, as you know, for more than the last 
five years to enhance the risk-based oversight that we provide 
to part 121 operations. In fact, the Inspector General and I 
and others in my position have testified before this Committee 
several times about the need for FAA to continue to improve the 
risk-based oversight system that we use for 121 operators and 
for our part 145 repair stations.
    As we have continued to try to improve that system, we have 
not been able to put the same kind of focus on the risk-based 
approach for the on-demand operators. That is a piece that we 
are moving toward, and as I mentioned in my testimony, we do 
have a tool that is available to the inspectors responsible for 
on-demand operators right now.
    We know 70 percent of those teams are using that, and we 
are putting out the guidance to mandate the use of that tool as 
the Inspector General suggests, as a way to fill an interim gap 
until we can have a more robust system available for these on-
demand operators. But again, we focus on the commercial 121 
operators and the part 145 repair stations because we believe 
that is where our highest priorities need to remain.
    Mr. Costello. Thank you.
    The Chair recognizes Mr. Petri. But before I do, let me say 
that I will have to leave to go to the Floor and Mr. Boswell 
has agreed to sit in as the Chair and preside over the rest of 
the hearing.
    Let me, Mr. Scovel, thank you, as Chairman Oberstar did, 
for your quick response to our request and we intend to follow 
up on this and to work with you and the FAA.
    The Chair now recognizes Mr. Petri.
    Mr. Petri. Thank you, and I apologize, too, because I will 
have to be over shortly to keep an eye on my colleagues.
    I just wanted to observe, we were talking a little bit on 
Jim Coyne's grading. There has been a lot of grade inflation 
since he taught school, so it probably would be a B plus today 
in any event.
    But I wonder if anyone on the panel, particularly the 
representatives of the private industry involved, had any 
comment? The Federal role clearly is to protect the traveling 
public and people who are being dealt with. You have many 
segments of the industry where they are actually not doing 
that. They are doing agricultural work. They are flying out to 
oil rigs. They are monitoring traffic patterns for radio 
stations. It seems to be a little different category than 
protecting the traveling public.
    And also, those tend to be in many cases smaller operations 
where too much regulation would reduce the service to the 
consuming public, people traveling on the road or buying food 
in the store or one thing or another. So is that a fair point 
to make?
    And I was particularly impressed by Mr. Zuccaro's 
discussion of all the different segmented specialized types of 
thought that is in place to try to tailor procedures to the 
different nature of segments of the industry, and then Mr. 
Coyne's discussion of the things the industry or pieces of it 
are doing to protect or to help the pilots and others involved 
do a better job.
    Mr. Zuccaro. Yes, Congressman, all the missions that you 
just mention are predominantly helicopter-type oriented 
missions, and they fall into that 50-plus mission diversity 
that we were speaking about.
    There are those type of scenarios. I would say something 
like flying off to the offshore oil, those are done under 135 
regulations and they are highly regulated and they are surveyed 
on an ongoing basis by the FAA. The FAA inspectors are at those 
operators' locations on a regular basis. They do fam rides out 
to the oil rigs and inspect the facilities.
    Absolutely, something like electronic news gathering or 
traffic reporting would fall under part 91. They are not really 
required because they are not doing passenger-carrying 
missions. But the other type of services in terms of 
surveillance with the FAA where you have small operators, that 
is an excellent point because I know in the helicopter 
industry, 85 percent of the operators are in fact small 
operators, one to five helicopters. They have one base location 
and they usually only conduct VFR operations in the local area.
    So the surveillance on that type of an operation and 
oversight is going to be dramatically different than obviously 
a large air carrier with hundreds of aircraft in international 
and domestic locations, but it is tailored accordingly as the 
case may be.
    I would point out one interesting thing that has frustrated 
us is that senior FAA management and executives, and the same 
on the NTSB side, have taken the initiative and in a very 
professional manner and a dedicated, committed focus on safety, 
have come out to the field and actually try to survey and look 
at the operations themselves.
    On numerous occasions, they were provided the opportunity 
to fly in the aircraft and go out and see the operating area. 
Unfortunately, they weren't able to do that. Their legal 
departments would not allow them to take those flights because 
of a potential conflict of ethics issue, which befuddles us, 
quite frankly. They took the time. They came out and they 
showed their interest and dedication, and yet the legal arm of 
those agencies told them you can't go on that flight and go see 
those areas and see what is going on. They are regulators. They 
are investigators and make recommendations. Who better to go 
out and to see the environment and to fly in it?
    So I don't know if there is anything that can be done with 
that, but we would love to take them out and show them those 
operations. And that is one of the idiosyncrasies that we run 
into out there.
    Mr. Boswell. [Presiding] Thank you.
    The gentlewoman from California, did you have questions? 
Ms. Richardson?
    Ms. Richardson. My question was for Mr. Bolen.
    Mr. Bolen, you reference in your testimony that the 
Aviation Rulemaking Committee submitted over 100 
recommendations to the FAA to update part 135 regulations. You 
stated that you are hopeful about the renewed interest in these 
recommendations.
    Could you tell us a little bit more and what confidence you 
have that you think it is going to be more than an interest and 
get done?
    Mr. Bolen. Well, I think there are a couple of different 
things that have come together, not the least of which is we 
have a new Administrator with a new five year term that can 
provide some stability and predictability. One of the reasons 
that we went to a five year term for an Administrator was to 
provide that kind of long range guidance. When we delivered our 
recommendations, we were at the tail end of one Administrator. 
We went through a long interim period. We now have a new 
Administrator.
    And I think there is also a renewed commitment to enhancing 
safety of all operations as we have collectively, as a 
community, made safety and continue to make safety a number one 
priority.
    Ms. Richardson. Have you had any conversations with the 
Administrator yet of a commitment to do that?
    Mr. Bolen. We have talked about promoting safety generally. 
We have not talked specifically about the ARC recommendations.
    Ms. Richardson. Okay. Would you be opposed to supplying 
with them what your request is?
    Mr. Bolen. Sure.
    Ms. Richardson. Okay. Thank you.
    Mr. Boswell. Thank you.
    I am going to announce that we are going to probably finish 
this today at 3:20 because of other things that are happening. 
But I do want to recognize Mr. Garamendi for any questions he 
might have, but we are going to try to wrap this up at about 
3:20. That is our goal at least.
    Mr. Garamendi?
    Mr. Garamendi. I will not stand in the way of your desired 
departure because I, too, have to leave.
    The report that we have before us really speaks to what the 
FAA has or has not done, and so questions for Ms. Gilligan. And 
I just want to go through the specifics of the report one at a 
time, and if you could respond on what the status of the FAA is 
with regard to each of these.
    Crew training. The report suggests that the crew training 
requirements and regulations are inadequate. Where is the FAA 
on that matter?
    Ms. Gilligan. We have issued a notice of proposed 
rulemaking for what we call crew resource management. The 
comment period is closed and we are working on that final rule.
    Mr. Garamendi. Expectation of completion is when?
    Ms. Gilligan. I believe it is the fall, but I can get you 
the data that we are working against. I am sorry.
    Mr. Garamendi. If you would, please.
    Ms. Gilligan. Sure.[The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Garamendi. Just moving right along. Maintenance 
requirements?
    Ms. Gilligan. We will look closely at the Inspector General 
recommendations, but I think as you have heard from much of the 
testimony, these aircraft are very different from the aircraft 
that are used in the part 121 operations, and we think that 
there are appropriate differences in some of the maintenance 
requirements.
    As Mr. Zuccaro pointed out, there are several sections of 
our rules currently applicable to these operations that do set 
a requirement for approved training programs and maintenance 
programs, and we do provide oversight of those. But we will 
certainly look again at those areas the Inspector General has 
highlighted to see if there is something additional that should 
be included.
    Mr. Garamendi. So there is no new rulemaking proposal 
underway?
    Ms. Gilligan. There is nothing underway yet.
    Mr. Garamendi. Mr. Bolen, of your 100 recommendations, are 
there anything in the maintenance?
    Mr. Bolen. My recollection is that there is some of the 
primary recommendations were in the area of pilot fatigue. And 
I think those recommendations are very consistent with some of 
the latest thinking, including circadian rhythms and so forth, 
and then icing, cockpit resource management were among the 
priorities here.
    Mr. Garamendi. Okay. So the maintenance issue remains open. 
That is what I heard.
    Ms. Gilligan. We, again, will certainly look at that. We 
always look closely at whatever the Inspector General suggests.
    Mr. Garamendi. And yet the fleet is both new and very old.
    Ms. Gilligan. Yes, sir, it is.
    Mr. Garamendi. So maintenance would seem to be an issue of 
some significance.
    Ms. Gilligan. It is, and that is why we do, in fact, have 
programs in place for maintenance oversight for these aircraft, 
but we will look to see if we need to enhance that.
    Mr. Garamendi. I note, and I suppose the Committee notes, 
that the Inspector General thinks this is something you ought 
to look at.
    Ms. Gilligan. Yes.
    Mr. Garamendi. The emergency helicopter operations, Mr. 
Zuccaro, you spoke to that. What is the FAA doing about that?
    Ms. Gilligan. We are drafting a set of standards that will 
apply specifically to emergency medical services. That notice 
has not yet been issued, but it is in draft and it is, as I 
mentioned in my testimony, a part of what we know Congress is 
very interested in in our reauthorization bill as well. So we 
are well along on meeting that expectation.
    Mr. Garamendi. Two more to go, and thank you. I will be 
done within five.
    The level of safety for air tour passengers?
    Ms. Gilligan. We implemented an air tour-specific set of 
standards in 2007 and we have seen an improvement in the 
accident rate in that industry as well. We will continue to 
monitor that, and if there are changes that appear to be 
necessary, we will pursue additional rulemaking if necessary.
    Mr. Garamendi. And Mr. Bolen, any of your 100 
recommendations in that area?
    Mr. Bolen. Were not specific to air tour.
    Mr. Garamendi. And finally, recommendations to strengthen 
part 135, just generally, I guess, that issue. We covered it.
    Ms. Gilligan. Yes.
    Mr. Garamendi. Mr. Chairman, thank you.
    Mr. Boswell. Thank you.
    And I think that probably brings us to closure. Mr. 
Chairman Costello had a short exchange before he left, said 
that he felt like we had a good exchange today and good 
information, and was pleased for the effort that you have all 
put into it, and be sure and thank you for taking the time to 
do this.
    And Mr. Boccieri now decides he would like a question. I 
had it down that he didn't want to have any.
    Mr. Boccieri. Thank you. I am sorry, Mr. Chairman, but 
those are very thought provoking questions.
    Mr. Boswell. There is a good possibility we will recognize 
you at this point, and then I will finish my remarks.
    Mr. Boccieri. Last one standing. Thank you.
    To Ms. Gilligan, there was some testimony that talked about 
the surveillance priority index that is assisting inspectors 
and prioritizing surveillance of part 135 operators. What 
exactly is going to be the process by which inspectors are 
going to be--what type of surveillance are we talking about?
    Ms. Gilligan. It is actually an automated tool that allows 
an Inspector who has more than one certificate for these kinds 
of operations to determine where he or she might better spend 
their time, based on the level of risk in the operation. So it 
is actually an automated tool where the inspector will fill in 
information, provide certain numerical values to that 
information, and the help tools he or she come up with a way to 
better prioritize where they spend their work, so that we don't 
have inspectors who are sort of just repeating what they have 
done everywhere. They are really looking at those operators 
where there may be higher risk and at those particular areas 
where there may be higher risk.
    Mr. Boccieri. So sort of a risk assessment?
    Ms. Gilligan. Yes.
    Mr. Boccieri. Okay. And to the panel, I don't know who 
would be more appropriate to answer this, but it has been noted 
that the on-demand operators have a significantly higher 
accident rate than commercial carriers, at least that is what 
is being purported by the I.G. However, the FAA data shows that 
the number of on-demand fatal accidents has declined since 
2000. How do you strike the balance on those two assessments?
    Mr. Bolen. Well, I will say that we have very good numbers 
in terms of the absolutes. We know that. Understanding the rate 
relates a little bit more to hours flown, which have not been 
as clear. And that is one of the reasons that the general 
aviation community has historically worked to try to strengthen 
the understanding and the gathering of data related to flight 
hours.
    Today, we rely on a survey and the survey results help us 
make a guess-timation of flight hours. But in terms of actually 
getting to rate, we would need more precise information on 
that. And that is one of the reasons why our community is we 
have worked to improve general aviation safety, have tried to 
focus on absolute numbers because they are clear, concrete and 
understood. The rate is a little bit more squishy.
    Mr. Boccieri. Judging on what you just said, Mr. Bolen, are 
you suggesting that perhaps that this oversight does not jive 
with the data that is coming in, since accidents are going 
down? I just want to be clear how the Inspector General is 
coming to these conclusions.
    Mr. Coyne. Well, the Inspector General was comparing the 
levels in part 135 primarily to the 121 community. And I don't 
think he was really focused on the more recent results that 
have been so positive in our industry. In fact, the even more 
recent results from 2009 show that the air charter industry had 
the lowest fatal record ever, in 2009.
    So we have seen good news. Maybe that was one of the 
reasons I gave him a C minus, you know. They didn't jive up 
with the data that we see in the industry as being so positive.
    Mr. Zuccaro. I think to clarify just a little, quickly, the 
data that is being kind of tossed around is really nebulous, 
and everybody focuses on there were X number of accidents in 
on-demand and X number of accidents in 121. That is not a 
comparison. All it says is what happened in that industry. But 
then you have to take a look at how many per 100,000 hours 
flown.
    There is empirical data for the airline industry. There are 
estimates at best. The magic to this is that I think everybody 
agrees the numbers being reported for on-demand are 
underestimated. There are really more hours being flown by on-
demand than is truly on the record. If, in fact, we knew that 
real number and it raised the number of hours flown, it would 
improve. By doing nothing else, it would improve the rate per 
100,000 hours just by knowing the real number. So that is a 
deficiency right there when you are throwing these numbers 
around.
    Mr. Boccieri. Are there reporting requirements for the 
number of hours flown?
    Mr. Zuccaro. No, and that is a deficiency that we have gone 
on record saying there ought to be a requirement for aircraft 
owner-operators on an annual basis to report their gross hours 
flown per aircraft, and we would have that number, but there is 
no requirement right now.
    Mr. Boccieri. Well, too, it might be argued, too, that 
flying through Niagara Falls and around the falls and the sorts 
of high risk flights are somewhat dangerous, too. Mr. Scovel, 
maybe you want to comment that that was taken into 
consideration.
    Mr. Scovel. Thank you, Mr. Boccieri. A couple of comments 
about data gathering.
    The panel is absolutely correct when they say that the data 
is squishy, and that has been one of the recommendations for 
some time is to improve FAA's data survey. It is now voluntary 
with about a 63 percent participation rate among the industry. 
It needs to be much, much higher in order to give the Congress 
and the FAA assurance that its oversight efforts are properly 
focused.
    If I could, sir, respond to your point on part 135 on-
demand fatal accidents. We looked at the years using NTSB data 
from 2000, when there were 22 such accidents, drifted down as 
the panel has said, the next several years at 18 per year; 
bumped up in 2003 to 23 fatal accidents, and then took a sharp 
drop down, down to 11 and 10 and 14; up again in 2008 to 19. In 
2009, preliminary NTSB estimates were two fatal accidents in 
that year. We aggregated the number and came up with, of 
course, 155 total accidents during the past decade for part 
135.
    Mr. Boccieri. Okay.
    Thank you, Mr. Chairman.
    Mr. Boswell. Thank you. I appreciate that exchange.
    And back to where we were, thank you to each one for 
coming. Again, Chairman Costello appreciated you being here. I 
do, too. And I think that as we work together, we will make 
things better, and so we will continue to do that.
    I won't repeat what he said in the opening, and we will go 
to standard procedure for the time lines that we do things to 
wrap up.
    Thank you for your being here today. Thanks for your work. 
We appreciate it.
    This meeting will be adjourned.
    [Whereupon, at 3:08 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
